<html>
<title> - WESTERN AND ALASKA WATER LEGISLATION</title>
<body><pre>[Senate Hearing 114-381]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-381

                  WESTERN AND ALASKA WATER LEGISLATION

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                     

      H.R. 2898                          S. 1936
 
      S. 1583                            S. 2046
 
      S. 1894                            S. 2083
 
 
                                   
                               __________

                            OCTOBER 8, 2015
                            
                            
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                       Printed for the use of the
               Committee on Energy and Natural Resources

         Available via the World Wide Web: http://www.fdsys.gov
               
               
                              __________
                                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
98-941 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="96f1e6f9d6f5e3e5e2fef3fae6b8f5f9fbb8">[email&#160;protected]</a>                
               
               
               
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, Jr., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia
                    Karen K. Billups, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Christopher Kearney, Budget Analyst and Senior Professional Staff 
                                 Member
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Melanie Stansbury, Democratic Professional Staff Member
                           
                           
                           C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3
Feinstein, Hon. Dianne, a U.S. Senator from California...........     5
Boxer, Hon. Barbara, a U.S. Senator from California..............   108
Valadao, Hon. David, a U.S. Representative from California.......   110

                               WITNESSES

Connor, Hon. Michael, Deputy Secretary, U.S. Department of the 
  Interior.......................................................   112
Kightlinger, Jeffrey, General Manager, Metropolitan Water 
  District of Southern California................................   134
Woolf, Sarah, President, Water Wise, and Partner, Clark Brothers 
  Farming........................................................   167
Keppen, Dan, Executive Director, Family Farm Alliance............   173
Frank, Richard, Professor of Environmental Practice & Director, 
  California Environmental Law & Policy Center, University of 
  California, Davis School of Law................................   209
Oglesby, Adrian, Director, University of New Mexico Utton 
  Transboundary Resources Center, and Vice-Chair, Middle Rio 
  Grande Conservancy District....................................   219

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

American Council of Engineering Companies:
    Email for the Record.........................................   289
American Public Power Association and the National Rural Electric 
  Cooperative Association:
    Letter for the Record........................................   290
American Rivers:
    Letter for the Record........................................   292
American Rivers, et al.:
    Letter for the Record dated 7/22/15..........................   295
    Letter for the Record dated 10/5/15..........................   297
    Letter for the Record regarding H.R. 2898....................   300
American Sportfishing Association:
    Letter for the Record........................................   302
Arquero, Hon. J. Leroy:
    Statement for the Record.....................................   304
Association of California Water Agencies:
    Press Release for the Record.................................    78
Association of Northwest Steelheaders:
    Letter for the Record........................................   309
Audubon California:
    Letter for the Record........................................   310
Bay, Hon. Norman:
    Letter for the Record........................................   312
Bay Area Council:
    Letter for the Record........................................    18
Board of Supervisors of San Francisco, Marin, San Mateo and 
  Contra Costa Counties:
    Letter for the Record........................................   315
Boxer, Hon. Barbara:
    Opening Statement............................................   108
California Allied Grower Group:
    Letter for the Record........................................   317
California Coastkeeper Alliance, et al.:
    Letter for the Record........................................   321
California Farm Bureau Federation:
    Letter for the Record........................................    15
California Legislature:
    Letter for the Record........................................   323
California Natural Resources Agency:
    Letter for the Record dated 2/15/12..........................   325
    Letter for the Record dated 2/28/12..........................   327
    Press Release for the Record.................................    80
California Waterfowl Association:
    Letter for the Record dated 7/8/15...........................   328
    Letter for the Record dated 8/12/15..........................    84
    Letter for the Record dated 10/16/15.........................   331
Cantwell, Hon. Maria:
    Opening Statement............................................     3
Carlsbad Municipal Water District:
    Letter for the Record........................................    27
CBS San Francisco Editorial Staff:
    Editorial for the Record.....................................    92
City Council of the City of Morro Bay:
    Resolution No. 60-15 for the Record..........................    45
City of Camarillo:
    Letter for the Record........................................    74
City of Oceanside Water Utilities Department:
    Letter for the Record........................................    35
City of Pismo Beach:
    Letter for the Record from Benjamin Fine.....................    52
    Letter for the Record from the Hon. James Lewis..............    53
    Letter for the Record from the Hon. Shelly Higginbotham......    54
City of Sacramento:
    Letter for the Record........................................   333
City of San Diego:
    Letter for the Record........................................    71
Congress of the United States:
    Letter for the Record........................................   335
Connor, Hon. Michael:
    Opening Statement............................................   112
    Written Testimony............................................   115
    Responses to Questions for the Record........................   241
Defenders of Wildlife, et al.:
    Letter for the Record........................................   340
Ducks Unlimited:
    Letter for the Record........................................    20
    Press Release for the Record.................................    81
East Bay Municipal Utility District:
    Letter for the Record........................................    58
El Dorado Irrigation District:
    Letter for the Record........................................    59
Fallbrook Public Utility District:
    Letter for the Record........................................    44
Feinstein, Hon. Dianne:
    Opening Statement............................................     5
    Written Testimony............................................   102
Frank, Richard:
    Opening Statement............................................   209
    Written Testimony............................................   212
    Responses to Questions for the Record........................   279
(The) Fresno Bee Editorial Board:
    Editorial for the Record.....................................    86
Fresno Council of Governments:
    Letter for the Record........................................    55
Friant Water Authority:
    Letter for the Record........................................    47
Friends of the River, et al.:
    Letter for the Record........................................   343
Garamendi, Hon. John:
    Letter for the Record dated 8/6/15...........................    11
    Letter for the Record dated 10/2/15..........................    12
Gibson, Hon. Bruce:
    Letter for the Record........................................    51
Glenn-Colusa Irrigation District:
    Statement for the Record.....................................   351
Golden Gate Salmon Association and Pacific Coast Federation of 
  Fishermen's Associations:
    Letter for the Record........................................   355
Grassland Water District:
    Letter for the Record dated 8/6/15...........................    34
    Letter for the Record dated 10/7/15..........................   359
Harris, Hon. Kamala:
    Letter for the Record........................................   361
Hoopa Valley Tribe:
    Letter for the Record........................................   364
Keppen, Dan:
    Opening Statement............................................   173
    Written Testimony............................................   175
    Responses to Questions for the Record........................   266
Kightlinger, Jeffrey:
    Opening Statement............................................   134
    Written Testimony............................................   136
    Responses to Questions for the Record........................   255
Kodiak Electric Association, Inc.:
    Statement for the Record.....................................   419
    Map of Terror Lake Hydroelectric Project Proposed Upper 
      Hidden Basin Diversion dated 5/18/15.......................   421
Lopez, Hon. Victor:
    Letter for the Record........................................    39
Los Angeles Times Editorial Board:
    Editorial for the Record.....................................    94
Mahoney Lake Partnership:
    Statement for the Record.....................................   422
Metropolitan Water District of Southern California:
    Letter for the Record to Chairman Murkowski..................     9
    Letter for the Record to Ranking Member Cantwell.............    10
    9/22/15 Board Meeting........................................    61
(The) Modesto Bee Editorial Board:
    Editorial for the Record.....................................    89
Monterey Regional Water Pollution Control Agency:
    Letter for the Record........................................    25
Municipal Water District of Orange County:
    Letter for the Record........................................    57
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
(The) National Audubon Society and the Nature Conservancy:
    Letter for the Record........................................   424
(The) Nature Conservancy:
    Letter for the Record........................................    13
(The) Northern California Water Association:
    Statement for the Record.....................................   426
Oglesby, Adrian:
    Opening Statement............................................   219
    Written Testimony............................................   222
    Responses to Questions for the Record........................   285
Olivenhain Municipal Water District:
    Letter for the Record........................................    41
Orange County Water District:
    Letter for the Record........................................    30
Oregon Salmon Commission:
    Letter for the Record........................................   429
Pacific Fishery Management Council:
    Letter for the Record........................................   430
Placer County Water Agency:
    Letter for the Record........................................   432
Rainbow Municipal Water District:
    Letter for the Record........................................    28
Reclamation District 108:
    Statement for the Record.....................................   436
Rincon del Diablo Municipal Water District:
    Letter for the Record........................................    32
(The) Sacramento Bee Editorial Board:
    Editorial for the Record.....................................    98
San Diego County Water Authority:
    Letter for the Record........................................    68
San Diego Regional Chamber of Commerce:
    Letter for the Record........................................    22
San Diego Union-Tribune Editorial Board:
    Editorial for the Record.....................................    91
San Francisco Chronicle:
    Editorial for the Record.....................................    95
San Jose Mercury News:
    Editorial for the Record.....................................    96
Santa Clara Valley Water District:
    Letter for the Record........................................    66
Santa Clarita Valley Sanitation District:
    Letter for the Record dated 8/11/15..........................    40
    Letter for the Record dated 10/5/15..........................   439
Santa Fe Irrigation District:
    Letter for the Record........................................    23
Sites Project Joint Powers Authority:
    Letter for the Record........................................   441
Sonoma County Water Agency:
    Letter for the Record........................................   443
South Coast Water District:
    Letter for the Record........................................    43
Thompson, Hon. Mike:
    Letter for the Record........................................   444
Trout Unlimited:
    Letter for the Record........................................   445
United Fresh Produce Association:
    Press Release for the Record.................................    77
Upper San Gabriel Valley Municipal Water District:
    Letter for the Record........................................   451
Valadao, Hon. David:
    Opening Statement............................................   110
Vallecitos Water District:
    Letter for the Record........................................    36
Valley Center Municipal Water District:
    Letter for the Record........................................    38
Water Infrastructure Network:
    Letter for the Record........................................    49
Water Quality Association:
    Letter for the Record........................................    70
WateReuse Association:
    Letter for the Record........................................   452
West Basin Municipal Water District, et al.:
    Statement for the Record.....................................   457
Western Growers Association:
    Press Release for the Record.................................    79
Western Recycled Water Coalition:
    Statement for the Record.....................................   468
Western States Water Council:
    Letter for the Record........................................   475
Westlands Water District:
    Press Release for the Record.................................    76
Westlands Water District, et al.:
    Joint Press Release for the Record...........................    82
Wilkesboro Hydropower, LLC:
    Letter for the Record........................................   477
Woolf, Sarah:
    Opening Statement............................................   167
    Written Testimony............................................   169
    Responses to Questions for the Record........................   263
Wyden, Hon. Ron:
    Statement for the Record.....................................   479

                                ----------
The text for each of the bills which were addressed in this hearing can 
be found on the committee's website at: https://www.energy.senate.gov/
public/index.cfm/hearings-and-business-meetings?ID=65220E15-0479-492E-
8423-CA1A381C1078.

 
                  WESTERN AND ALASKA WATER LEGISLATION

                              ----------                              


                       THURSDAY, OCTOBER 8, 2015

                                       U.S. Senate,
                 Committee on Energy and Natural Resources.
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:39 a.m. in Room 
SD-366, Dirksen Senate Office Building, Hon. Lisa Murkowski, 
Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning. The committee will come to 
order.
    We have a full house speaking about an issue this morning 
that I think is fair to say if you are from the West, you get 
up every morning thinking about what is happening with water, 
with our drought situation, and what can be done to address 
some of the issues that have been long-standing in California 
and the concern that it continues to grow and be an evolving 
threat.
    Our focus this morning is on legislation, which is good to 
have this discussion before the Energy Committee. There has 
been much thought, there has been much oversight and many, many 
reviews.
    I myself have been out to California a couple of times 
meeting with farmers, meeting with interests that are very, 
very concerned about how we move forward. But until you have 
some legislation in front of you that defines what some of the 
proposals are, it makes it more difficult for us as a 
committee.
    Today we are focusing on legislation. We have a Senate bill 
that my colleague and friend, Senator Feinstein, has been 
working on for some time now, the California Emergency Drought 
Relief Act. We have the House bill that Congressman Valadao has 
been working on, the Western Water and American Food Security 
Act. Their sponsors are here, along with Senator Boxer who has 
been equally engaged on this issue on behalf of her 
constituents. So we will hear brief comments from them this 
morning before we go to our panel of witnesses.
    Everyone, I think, in this room is aware that we have a 
serious, long-lasting, and consequential drought. California 
has imposed mandatory reductions on water use by its residents 
and its businesses. Many California farmers continue to face 
unprecedented reductions in water delivery, and some 
communities no longer have running water. Some of the stories 
we have heard just really make you heartsick. This is something 
that must be addressed.
    But this is not just about what we are seeing in 
California. It is a Westwide drought. It is being felt across 
the Colorado River Basin, up in the Pacific Northwest. Interior 
Alaska even was abnormally dry this summer. Dry conditions also 
contributed to a terrible wildfire season this year. So when we 
think about the impacts of drought, it is more than just the 
water itself. It is also the impacts.
    The question we are here to discuss is what do we do about 
it? What do we do about the drought? Our choices largely boil 
down to the measures before us today.
    The House and Senate bills both seek to maximize water 
delivery to where it is most needed in California. Both reflect 
some common approaches. For example, requiring agencies to use 
real-time monitoring to address environmental concerns 
associated with increased water flows through the Bay Delta. 
But I think it is important to note that the bills diverge in 
some important ways.
    The Senate bill seeks to provide guidance to Federal 
agencies to increase flows through the delta, while also giving 
agencies flexibility to make decisions on flow levels. Its 
sponsors have proposed substantial increases in funding for a 
variety of activities, including greater storage. As we review 
that approach, we need to consider the criticisms of that 
Senate bill: that its guidance to the agencies is perhaps 
insufficient, that current flexibility is not being utilized, 
and that it lacks necessary funding offsets.
    We also need to consider the approach that has been taken 
by our House colleagues. Their bill gives more direction, less 
flexibility to the agencies. It includes funding for storage 
and other activities but is fully paid for. These decisions 
have led some to claim that the House bill is overly 
prescriptive, is too rigid, and does not provide sufficient 
funding for some key programs.
    We could talk about Goldilocks here and which one is too 
big, too small, and which one is just right, but I think it is 
important to acknowledge that these are very complicated, some 
very complex issues, and we need to reach a unified legislative 
response.
    Also before us today is a bill from Senators Heinrich and 
Udall that includes some interesting provisions on water 
transfers and exchanges.
    Finally, we are receiving written testimony on three 
hydropower bills, including my measure to authorize the 
expansion of an existing hydro project at Terror Lake in 
Alaska. Right now, the area around Terror Lake is powered 
solely, solely by clean, renewable hydropower and a small wind 
turbine. We are in kind of an interesting situation. If we 
cannot allow for the expansion, what we do then is we turn back 
to expensive diesel fuel instead.
    The news across the country, and it was highlighted when 
President Obama was up in the state, was that we are making 
some remarkable headway with our microgrid systems. Kodiak is 
always pointed out as the second-largest island in the United 
States of America getting to the point where they can be 100 
percent on renewables, but we are going to have to go back to 
diesel if we cannot get an expansion around Terror Lake.
    It is a beautiful place out there surrounded by a lot of 
bears, and if anybody is not thinking kindly about it, maybe 
they should go take a trip out there and take a look. I will 
invite you to visit our bears.
    But what I think we want to focus specifically on here this 
morning is the extent of the drought that we are facing in the 
West, and I appreciate a great, great deal the work the 
sponsors of these various bills have put into where we are 
today.
    I have asked for indulgence of my colleagues that are here 
to testify. We are trying to get through, again, a pretty 
aggressive panel with hopefully lots of questions, but I am 
pleased that you have joined us this morning. We will look 
forward to your comments after Senator Cantwell has provided 
hers, and then we will move to this very important issue.
    Senator Cantwell.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Well, thank you, Madam Chair, and thank 
you for holding this important hearing. And welcome to the 
Californians. That is something that my Washington doesn't 
always say. [Laughter.]
    But I certainly appreciate Mr. Valadao. We just met this 
morning, but I just want everyone to know there are no more 
tenacious Members in the U.S. Senate than the two women sitting 
next to you. I know that they have worked very hard on this 
legislation over a long period of time, and they are certainly 
trying to have the best interests of everybody at hand. I look 
forward to hearing all of your comments this morning as we try 
to deal with this very tough issue.
    As the Chair said, communities across the West are seeing 
the impacts of this, not just Californians. Towns and wells 
have run dry, farmers have seen billions of dollars of losses, 
and the ecosystem has suffered.
    So we know this, there are no easy solutions. However, one 
thing is clear: we cannot address the long-term impacts of this 
issue by fostering short-term solutions that don't help us 
manage the ecosystem. The worst thing to do, obviously, is to 
pass legislation that ends up in the courts and allows us not 
to move forward on anything.
    Drought will likely continue for the coming years, and 
short-term solutions that divide communities, threaten the 
environment, and create greater uncertainty only make the 
challenge harder because we know that this situation is not 
going away. There is no question that we are seeing some of the 
most severe droughts in history, and California is experiencing 
the worst drought in 500 years.
    In the State of Washington, we have had record-breaking 
temperatures, low snowpack, catastrophic wildfires that I also 
know my colleagues here before us today care greatly about, 
farmers are facing $1.2 billion in crop losses this year alone, 
and nearly a quarter million sockeye salmon died in the 
Columbia River this summer trying to reach their spawning 
grounds.
    Over the last several months, the committee has heard a lot 
of ideas about how to deal with drought, so today we are 
hearing about these pieces of legislation before us that you 
have sponsored.
    The Yakima Basin hearing we had earlier this year, Madam 
Chairman, on drought was kind of eye-opening, I think, for a 
lot of people here because it included the innovation where 
projects are balanced, integrated with a holistic response and 
where tribe, fishermen, farmers, and foresters all sat before 
us in an agreement about how to move forward. I like this 
approach. I like this approach because it allows you to solve 
problems, stay out of the courts, and keep moving forward.
    I want to make sure that we are developing long-term, 
resilient plans and we are doing that as we continue to focus 
on water-sustainable communities. I also want to make sure that 
we are not pitting one community against another.
    I should just say that I chaired the San Joaquin hearing 
several years ago and so sat through the 18 years of litigation 
on that case and, finally, solutions of people coming together. 
So I know well some of the challenges that California has tried 
to push through in the past. My point is just this: that 
lengthy court battles resolve nothing.
    Instead, what we need are solutions that take an 
integrated, basin-scale approach, take into account all the 
needs in the watershed, and make sure that there are locally-
driven solutions that are collaborative, yes, and consensus-
based.
    We need to make sure that we are doing everything we can to 
make sure we are protecting our environment--clean water, 
healthy ecosystems--and that we are not managing the water or 
the ecosystem to the brink of collapse. I say this because we 
are reminded every day about the iconic salmon population in 
our state and how trading one for the other does not work for 
us. It does not work for fishermen.
    I want to make sure that we are not overriding 
considerations of the National Environmental Protection Act. 
Drought and management solutions should work with nature to 
seek and increase the best benefits for both humans and the 
environment.
    Lastly, I want to make sure that we are responding to 
drought and how we manage water, not how we make it more 
complicated. So I do believe in modernizing our Federal 
approaches. I want to make sure that we are not creating 
uncertainty, but we are--utilizing locally-based solutions that 
incentivize people to work together and get the best science 
available, leveraging the power of innovation to help us solve 
this problem.
    I know there are a lot of things that we are going to talk 
about today, Madam Chair, on this issue, but I hope that as we 
talk to the witnesses, we will keep these priorities in mind to 
make sure that we are improving our existing infrastructure and 
making sure that we have nature-based solutions and addressing 
all of those issues so that fish, farmers, forests--are all 
working together on these solutions.
    Thank you.
    The Chairman. Thank you, Senator Cantwell.
    I am pleased to be able to welcome our colleagues to the 
committee. Congressman, we appreciate you taking time from your 
morning to join us with this very important issue, but further 
to the point, for all that you have been doing really for years 
in this arena. We look forward to working with you as we 
advance these measures.
    With that, Senator Feinstein, if you would like to lead off 
this morning with your comments, welcome.

     STATEMENT OF HON. DIANNE FEINSTEIN, U.S. SENATOR FROM 
                           CALIFORNIA

    Senator Feinstein. Thank you very much, Madam Chairman and 
Ranking Member Cantwell and members of both parties. I am very 
pleased to have this opportunity.
    I make this statement on behalf of my colleague on the 
left, Senator Boxer. We are joined at the hip on this, and I 
hope after you hear our testimony you will join us in that.
    I would also like to thank Jeff Kightlinger for testifying 
today. Jeff is the General Manager and CEO for the Metropolitan 
Water District in Southern California. This is the largest 
municipal water provider in the nation. It is a water district 
that supplies drinking water to 26 cities and water districts, 
and it serves nearly 19 million people. Jeff is a professional. 
He has been at this for a long time, and hopefully, his words 
will mean something to this committee.
    Let me begin with a general statement. This drought is 
worse than anything I have seen in my lifetime, and I am very 
worried about what it means for the State of California. 
Reports say that the Sierra Nevada snowpack, which is our major 
source of water, hasn't been this low in 500 years. And there 
is a strong belief that droughts will become chronic and, 
therefore, real problems.
    Rural and disadvantaged communities are especially hard 
hit. We have subsidence of huge areas, some as the ground is 
empty for as much as 60 feet, and this can become catastrophic 
in the event of an earthquake.
    As of this month, 2,400 wells are dry or soon will be, and 
this puts 12,000 people in jeopardy of being without water. 
Just this month, in the Washington Post, I read about a family 
from Porterville reduced to bathing with donated supplies and 
living off bottled water. And this isn't the only one.
    UC Davis reported that the California economy will lose an 
estimated $2.7 billion in 2015 along with 18,600 jobs. That is 
on top of the $2.2 billion last year and another 17,000 jobs we 
lost.
    Over the past two years, Senator Boxer's staff and my staff 
have spent countless hours working out a drought bill in 
consultation with farmers and fishermen, cities and rural 
areas, and environmentalists and businesses up and down the 
state. There is a truism, ``Whiskey is for drinking, and water 
is for fighting.'' I appreciate Senator Cantwell's comments, 
but there is a long history. It is very difficult in California 
to get a consensus on anything that is going to be meaningful.
    We have a bill that we believe has widespread support. The 
Nature Conservancy and the California Farm Bureau support the 
bill, as do 29 water districts and cities. I put together a 
packet of those letters of support that I would like to provide 
this committee, if I may, Madam Chairman.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Feinstein. Senator Boxer's and my bill has two 
goals, short-term emergency relief and long-term investments. 
In the short-term, this means being able to move water 
consistent with environmental laws to help California for the 
duration of the Governor's drought declaration of emergency. It 
does this in a number of ways.
    It maximizes water supplies, consistent with environmental 
law. The bill requires daily monitoring when fish are near 
pumps so more water can be pumped when fish are not nearby. It 
promotes water transfers between willing sellers and buyers so 
we can move water to drought-stricken communities that have 
been the hardest hit. It allows the Delta Cross Channel gates 
to open to the maximum extent feasible, and it manages delta 
turbidity to maximize water supplies while protecting fish.
    We also have long-term solutions. We believe droughts in 
the West are likely to be chronic and more severe with 
population growth and climate change. California voters already 
provided a roadmap for how to fund these projects when they 
overwhelmingly approved a $7.5 billion water bond last year. 
That bond includes $2.7 billion for storage and another $725 
million for recycling and advanced treatment.
    Recognizing the limits of the Federal budget, this bill 
reduces the Federal role in water supply projects to one for 
support for state and local projects. The bill provides 
authorizations for the following: $600 million for storage 
projects to capture water during the wet years to put to good 
use during the dry years and another $50 million in support of 
research to lower the cost of desalination and reduce its 
environmental impacts. The bill also identifies 105 local water 
recycling projects capable of producing 850,000 acre-feet of 
water and another 26 desalination projects capable of producing 
almost 330,000 acre-feet.
    To get these projects off the ground, the bill authorizes 
$500 million in grants, loans, and loan guarantees, and the 
bill creates a program to shift rural and disadvantaged 
families from wells to more resilient systems like recycling.
    This bill is not going to please everybody. There is no way 
to do it. But not to do anything is to run the risk of really 
losing the entire economic engine of California. We cannot 
function without water. People cannot live without water. So we 
are now in a different climate, in a different set of 
circumstances, and we need to take action.
    I want to thank you, Madam Chairman, for working with us on 
our emergency bill before, and I hope you will see the projects 
of desalination and recycling as worthy of some Federal 
support.
    I want you to know that we are searching for offsets. We 
understand the financial situation, and we very much hope to 
come up with some.
    So thank you very much, everybody, for your attention and 
concern.
    The Chairman. Thank you, Senator Feinstein. Know that we 
certainly will be working with you and the members of the----
    Senator Feinstein. Thank you.
    [The prepared statement of Senator Feinstein follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman.--California delegation.
    Senator Boxer, welcome to the Committee.

 STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Madam Chairman, Ranking Member Cantwell, I 
am so glad you two are sitting up there because I honestly--I 
really do trust your judgment on a lot of these issues, and I 
hope you will work with us very closely because when you talk 
about water, you are talking about the third rail of politics 
in our state. It is really true.
    Now I served in the House for ten years and I absolutely 
love the House, ten years, a great experience. But in the 
House, I fought for my district, 500,000. Now it is probably 
about 600,000 or so, and I understand that.
    I want to point out to you that Senator Feinstein and I 
represent almost 40 million people, and we hear from all of 
them. They are all the stakeholders that care about every word 
that we say about this subject. So it is the farmers, yes. It 
is the fishing industry, yes. It is the tourist industry, yes. 
It is the urban users, the suburban users, the rural users. 
They all want to have a seat at the table.
    What we have tried to do in our bill is just that. We do 
not want to reignite the water wars because, Senator Cantwell, 
you are right. They lead to the courthouse door. They have led 
to the courthouse door, and what that means is nothing gets 
done and people suffer on all sides.
    So we have to do something courageous here. We have to say 
to all the stakeholders let us hear you out and let us have a 
bill that is fair to everyone.
    And my guiding light on all these water bills has been 
that. I will not reignite the water wars. I will not turn one 
stakeholder against the other, environmentalists against the 
farmers. That is not what I want to do. Farmers against 
fishermen, that is what has happened. We have to get past it. 
That is why I am so proud of our bill, because I think we 
really did make huge progress.
    We are in a fifth year of a devastating drought. My 
colleague has laid it out. I won't go over it again because we 
know how horrible it is out there. It is hurting everyone. All 
the stakeholders are bleeding. They are hurting--the farmers, 
the fishermen, the urban, suburban users. And yes, some people 
are actually cutoff from water supplies.
    The wildfires, it is extraordinary. It is frightening. Our 
first responders just put their life on the line because the 
conditions on the ground are such.
    Now we can't get into an argument here about climate 
change. It is a loser. But all we want to say is we are dealing 
with climate change now, and if people choose not to address 
it, it is your option. But today, we are trying to look at 
water. So I hope we can do this in the face of this 
unprecedented drought.
    I want to give a shout-out to our Governor. He has really 
led the way by building bipartisan support. He passed a 
landmark water bond. Everyone came together. It promotes 
recycling, conservation, storage, desal.
    Communities are leading the way, and I am proud to tell you 
Californians have risen to this occasion. They have reduced 
their water use by nearly 27 percent in August, exceeding the 
state's mandate for the third straight month.
    So now it is time for Congress to act, and that is why I am 
so proud that you are having this hearing today. And I am very 
encouraged by your opening statements because we need to move 
forward.
    I want to echo what my colleague said. I have never really 
seen such a broad array of support for a bill. And I think, 
Madam Chairman and Ranking Member Cantwell, you ought to look 
at that. I mean, to have support from the California Farm 
Bureau Federation and local water districts and the Bay Area 
Council and the Nature Conservancy, and in that book you will 
see the very strong support that we have.
    That doesn't mean it is a perfect bill. There is no such 
thing. It is an imperfect bill, but it is a good bill. What we 
have done is taken the best of bills that passed the House and 
Senate, of some of Senator Feinstein's former bills, my bills, 
as other House Members have the best of their bills in this 
bill, and it does complement the water bond that we passed. So, 
yes, we will need to have some funding, but there is funding 
back home as well.
    This bill benefits all the stakeholders. It helps farmers 
without undermining fundamental environmental protections. It 
helps hard-hit communities. It takes an all-of-the-above 
approach, which we always say we love. We always say we love an 
all-of-the-above approach. That is what we do here. We invest 
in conservation, water storage, recycling, desal, all the 
things that we know we can do. The bill is a compromise.
    Madam Chair, if I could just let you know this. I have 
compromised on this bill. You know, if I could write it all on 
my own and not talk to anyone else, it would look different. We 
did compromise on this.
    It has the elements, as I said, of a number of proposals 
that I have put forward in the past, Senator Feinstein, and 
Members of the House. It is critical that we pass legislation 
that doesn't undermine Federal and State environmental 
protections because, as Senator Cantwell noted, that would only 
threaten fragile ecosystems. It would also put thousands of 
jobs at risk in our home state in recreation, in tourism, in 
fishing.
    We need a bipartisan, comprehensive drought bill. We have a 
chance to do this right. We can pass a bill that has broad 
support, that unites all of our water users, that has the 
support of the Administration and the State of California that 
will move our water policy into the 21st Century. That is what 
I am urging you to do from the bottom of my heart because this 
is serious.
    Bring us all together. This bill does it. This is a unique 
moment in history where we have found a bill that has this kind 
of broad support.
    So we will work with you. We want to alleviate the pain not 
only in our state, but across much of the West. The solutions 
in here are for the whole country, and I thank you so much for 
this opportunity.
    The Chairman. Thank you, Senator Boxer. I appreciate your 
leadership in these issues, long-standing.
    Senator Feinstein. Madam Chairman, may we be excused?
    The Chairman. Yes. Thank you for being here this morning 
and again for your good work.
    We will now turn to Congressman Valadao. Welcome to the 
Senate side.

   STATEMENT OF HON. DAVID VALADAO, U.S. REPRESENATIVE FROM 
                           CALIFORNIA

    Mr. Valadao. Thank you.
    The Chairman. Good morning, and thank you for your 
leadership on this issue.
    Mr. Valadao. Good morning, Chairwoman Murkowski, Ranking 
Member Cantwell, and members of the committee.
    I appreciate the invitation to testify before you today on 
my legislation, H.R. 2898, the Western Water and American Food 
Security Act of 2015, which passed the House of Representatives 
this past June.
    Before we get into the details of the bill, I wanted to 
share a little bit about the area I represent. California's 
21st congressional District is unique. Located in the southern 
half of the Central Valley, my district spans about 160 miles 
from the Fresno County line to just south of Bakersfield, an 
agriculture powerhouse. The Central Valley produces the 
majority of the fruits, vegetables, and nuts for the entire 
nation.
    Minority populations make up over 80 percent of my 
constituency, and our communities face many unique challenges 
due to our rural setting, such as a lack of healthcare and 
education. With another manmade drought evolving, the San 
Joaquin Valley is in danger of becoming a dustbowl unless 
immediate action is taken to change the policies that puts the 
needs of fish above the livelihood of people.
    As a lifelong resident of the Central Valley and as a dairy 
farmer in Hanford, I have witnessed firsthand the challenges 
faced by many residents when the water resources become scarce. 
Today, parts of my district are suffering from unemployment 
rates as high as 50 percent.
    As farmers are forced to fallow thousands of acres, the 
ripple effects are felt throughout the community. Workers are 
laid off, families are unable to provide for their children, 
and while food lines continue to grow, we must import food from 
other countries just to meet the demand. I have seen families 
out of options, living in shacks along the road.
    It is difficult to watch my friends and neighbors, people I 
grew up with, suffer because of the laws passed by Congress and 
the method in which the Federal agencies have chosen to 
implement these laws. The San Joaquin Valley is facing a dire 
situation, and the simple fact of the matter is that we, as 
Members of Congress, need to add a little bit of common sense 
into the law.
    In an effort to throw a lifeline to California and all of 
the Western States enduring years of drought, I worked with my 
colleagues to act decisively. My legislation, H.R. 2898, the 
Western Water and American Food Security Act, would streamline 
the regulatory process, provide flexibility, and improve 
scientific efforts to restore some water supplies, in turn 
providing more economic certainty to farmers and communities in 
the Central Valley.
    Although a lack of precipitation contributes to the 
valley's water supply situation, problems are exacerbated by 
Federal regulations and decisions of the Federal and State 
water managers. The dedication of vast quantities of water for 
the protection of endangered fish is done at a great cost to 
the communities in central and southern California.
    Despite this, there is no scientific indication that the 
condition of the very fish they are trying to protect has 
actually improved. Furthermore, there may be alternative 
methods to protect fish from predatory species that could allow 
for additional water supplies to be made available to those 
areas most in need.
    My legislation would ensure that the Federal Government's 
decisions to protect listed species are effective and based on 
up-to-date science. H.R. 2898 also requires agencies to use the 
most accurate survey methods and to determine how water 
projects can operate to maximize water utilization and 
deliveries.
    We all know that the Government cannot make it rain; 
however, Congress does have the ability to expand water storage 
in wet times so that we can get through the inevitable dry 
years. With more reservoirs, we can expand our water 
infrastructure and storage to ensure reliable water supply for 
the future.
    Dam feasibility studies that began over a decade ago are 
still incomplete today costing taxpayers millions of dollars. 
H.R. 2898 improves the process to build storage on a West-wide 
basis through provisions modeled after the Water Resources 
Reform and Development Act. It makes common sense changes to 
the Safety and Dams Act, reducing such red tape that could 
prevent additional years of inaction.
    This legislation is extremely measured, given the carnage 
caused by the Federal Government. The language regarding 
California that passed the House of Representatives is very 
similar to the language negotiated with the Senate just last 
year. I believe it is reasonable to continue our dialog from 
where our conversation ended rather than where it began.
    I have experienced the challenges the West faces because of 
this epic drought. I have seen the harm it has done to the 
people and jobs and its ever-growing impact on the environment. 
I remain hopeful that Congress can find a solution to provide 
relief to all those suffering not just in California, but for 
the entire West, as well as those Americans who rely on us to 
put food on their table.
    On behalf of the House of Representatives, we stand ready 
to work with the committee to achieve this goal.
    Thank you again for your time, Senator.
    The Chairman. Thank you, Congressman. I appreciate you 
being here and really on the House side continuing to work 
these issues that have been so key.
    I have visited with many Members over there. I think it is 
testimony to where we are here today discussing this particular 
bill that has moved through. We need to be working with our 
counterparts on the other side, so thank you for your 
leadership with this.
    Mr. Valadao. Well, and thank you. I appreciate you taking 
so much time to especially come out to the valley. And I would 
like to actually invite any one of the members of the committee 
and even the two Senators that spoke here alongside of me to 
come visit the valley.
    Come see some of these areas that you hear about in the 
news when you hear about people having water bottles delivered 
to their house so they can take care of their families or bathe 
their children or the shacks that they have been putting up 
along some of these roads. This is having a real human impact 
here, and it is something that I think people need to see for 
themselves to truly understand.
    So I appreciate the time that you have taken out personally 
for this and look forward to continuing to work with you.
    The Chairman. Thank you.
    With that, we will now turn to our panel of witnesses. We 
have a full slate this morning. So I would ask that Mr. Connor, 
Mr. Kightlinger, Ms. Woolf, Mr. Keppen, Mr. Frank, and Mr. 
Oglesby, please come forward, and we will do introductions and 
move to your testimony.
    Good morning, and welcome to all of you. Thank you for 
agreeing to join us here this morning to speak to the pending 
legislation before us and to receive further testimony on the 
Western-wide drought issues and the legislation that we have.
    We will begin this morning's panel with the Honorable 
Michael Connor, who is the Deputy Secretary for the U.S. 
Department of Interior.
    After his comments, he will be followed by Mr. Jeff 
Kightlinger. Jeff is the General Manager for the Metropolitan 
Water District of Southern California. Welcome to the committee 
again.
    We have Ms. Sarah Woolf, who is the president of Water Wise 
and a partner in Clark Brothers Farming.
    Mr. Dan Keppen is the Executive Director of the Family Farm 
Alliance. Thank you for joining us.
    We have Mr. Richard Frank, who is the Director of the 
California Environmental Law and Policy Center at the 
University of California, Davis. Thank you.
    Wrapping up the panel is Mr. Adrian Oglesby, who is the 
Executive Director of the Utton Transboundary Resources Center 
at the University of New Mexico. He is also Vice-Chair of the 
Middle Rio Grande Conservancy District.
    Again, thank you all for the testimony that you will 
provide for us. We would ask that you limit your comments this 
morning to about five minutes. Your full testimony will be 
included as part of the record. Once each of you have concluded 
your remarks, we will have opportunities for members of the 
committee to ask questions to you.
    With that, Mr. Connor, if you would begin the panel this 
morning. Welcome.

   STATEMENT OF HON. MICHAEL CONNOR, DEPUTY SECRETARY, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Connor. Thank you, Chairman Murkowski, Ranking Member 
Cantwell, Senator Franken. I appreciate the opportunity to 
appear again before the committee to continue our discussion on 
drought response measures.
    As I expressed in June, the Administration is acutely aware 
of the drought-related challenges confronting families, 
farmers, tribes, businesses, cities, rural communities, and the 
environment throughout the West. And we are committed to doing 
all we can to meet those challenges.
    As detailed in my written testimony, we are taking a 
multifaceted approach in marshaling every resource at our 
disposal to assist Western communities impacted by the drought. 
These actions include maximizing water supplies for health and 
safety purposes, as well as farming and other economic 
activities, maintaining critical environmental protections for 
fish and wildlife, and conserving stored water in the event of 
continued drought. It is with this backdrop that I have 
submitted testimony on the three drought bills before the 
committee that, by and large, take vastly different approaches 
to this problem.
    Two of these bills in particular, H.R. 2898 and S. 1894, 
stand in vivid contrast to each other. They are not just 
illustrative of diverse and competing concerns that have 
historically driven water conflicts throughout the West, they 
are representative of the challenges we face today and our 
common goal to maximize water supplies, build long-term 
resiliency, and promote collaborative efforts that avoid 
pitting water users against each other.
    To quickly summarize, as set forth in a July statement of 
Administration policy in my written testimony, the 
Administration strongly opposes H.R. 2898. There are many 
specific provisions which are objectionable, but in general, 
the bill would impede drought response efforts through measures 
that slow decision-making, increase the likelihood of divisive 
litigation, mandate infeasible outcomes, and limit the real-
time operational flexibility that is critical to maximizing 
water delivery.
    With respect to S. 1894, there are numerous provisions in 
the bill that we do support, while others cause concern or need 
additional clarification or technical edits. We are grateful 
for the many months of dedicated work on the part of Senator 
Feinstein and her staff to craft and refine S. 1894. In 
general, we do remain concerned about provisions that could be 
the basis for new litigation regarding operational decisions 
intended to maximize water supply.
    At the same time, we appreciate the comprehensive approach 
in S. 1894 that is intended to address the need for 
conservation, habitat improvements, new water supplies, and 
create financing mechanisms to support all those approaches. S. 
1894 most closely tracks with the Administration's ongoing 
efforts to address the short-term crisis of drought, as well as 
developing the broad array of tools needed to build resiliency 
in the face of climate change.
    With respect to the third water bill, I would note that 
until this year, drought has been affecting New Mexico almost 
to the extent similar to California. This year has provided 
some relief, but water supplies, particularly in the Rio Grande 
basin, are still well below normal. The Department supports the 
goals in many provisions of the New Mexico Drought Preparedness 
Act. We do, however, have some concerns about some of the 
introduced language in the bill that are detailed in my written 
statement.
    In closing, I want to stress that the ongoing drought, 
particularly in California, has greatly limited water supply. 
By some metrics like snowpack, soil moisture, groundwater depth 
in some areas, this may be the worst drought in at least 500 
years. No legislation is going to greatly increase water supply 
in the short term, and to the extent it could provide some 
modest increase, the additional supply to one user is likely to 
come at the expense of some other water user or an already 
overstressed environment.
    Nonetheless, the Administration's extensive administrative 
and operational actions are proving that significant progress 
on drought can be made within the law. This is true if those 
actions are carried out in close collaboration with the state, 
affected water users, and other interested parties. We have 
been impressed with the level of cooperation and agreements 
that have been reached this year, even in the stress of the 
worst drought in recent times.
    Looking ahead, it is imperative that the Federal 
Government, State, tribes, and local communities think beyond 
the scope and scale of the current drought and plan for the 
needs of the future in a changing climate.
    Several of the provisions of the bill before the committee 
today will help us do just that. We are ready to work with the 
committee to find common ground on legislation that can 
complement the Administration's efforts to assist communities 
affected by drought both now and in the future.
    I stand ready to answer questions at the appropriate time.
    Thank you.
    [The prepared statement of Mr. Connor follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Secretary Connor.
    Mr. Kightlinger, welcome.

STATEMENT OF JEFFREY KIGHTLINGER, GENERAL MANAGER, METROPOLITAN 
             WATER DISTRICT OF SOUTHERN CALIFORNIA

    Mr. Kightlinger. Thank you much, Chair Murkowski, Ranking 
Member Cantwell, members.
    As noted, Jeffrey Kightlinger, Metropolitan Water District 
of Southern California. We are the largest municipal water 
agency in the U.S. We supply water to one in every two 
Californians, 19 million people across southern California. 
That works out to about two million acre-feet of water a year, 
two billion gallons of water every single day on average. That 
results in about 50 percent of all of southern California's 
water. We get that water from two main sources, the Colorado 
River and Northern California, through long aqueducts that 
supply that water to Southern California.
    As noted by many of the speakers, it is not just California 
that is in drought. We are in the midst of a cataclysmic 
drought in California. The last four years, driest period in 
500 or 1,200 years, depending on which tree rings you are 
looking at. But the seven of the last eight years have been 
drought in California; four of the last six years have been 
declared by our Governors to be emergency droughts over the 
last six years.
    So an incredible drought in California, but it is a West-
wide drought. Colorado River basin has been in drought since 
2000. So we are very concerned about the future of this area, 
and we are--and we do greatly appreciate this committee taking 
the time to look at the issue, and we certainly appreciate the 
efforts of Senators Feinstein and Boxer to introduce 
legislation.
    What we particularly like about both bills, both the 
Senator's bill and the Congressman's bill, is that it focuses 
on two things: both short-term flexibility as well as some 
long-term improvements. Short-term flexibility is critical. 
Metropolitan keyed a whole group of--a whole suite of 
scientific efforts to focus on real-time monitoring, the use of 
turbidity as a measure in which to substitute for smelt-
tracking.
    We believed in this process. We had a number of scientists 
work on it. We engaged with the fishery agencies and the 
regulatory agencies to do that. We did not do a good job in 
2013 and 2014, and we probably lost 800,000 acre-feet by storms 
that we didn't--weren't able to move that water. That resulted 
in taking a bleak year into a cataclysmic drought year.
    To their credit, the regulatory agencies didn't want to 
repeat what we experienced in '13-'14. They have worked hard to 
come up with how to use this real-time monitoring and adaptive 
science, and we used it as well as we possibly could 2014-2015. 
I believe we wrung as much water that could be possibly wrung 
out of the system this past year and kept a bleak year to being 
a bleak year. So that was as good as we could do, and the 
agencies worked hand-in-hand with us, the water providers, to 
make sure we did that.
    That is what a lot of the provisions in both the 
Congressman Valadao's and the Senator Feinstein-Boxer bill 
really are looking at how do we even go further, better, faster 
with that real-time monitoring, the adaptive science, and we 
think there is a real pathway there to do what we can to--in 
the short-term to increase our chances of providing more water 
supply.
    We also appreciate that the bills talk about fast-tracking 
and moving on storage. Metropolitan built a $2 billion 
reservoir in 2000. We have our own storage in southern 
California. But for that, we would have been in dramatic 
rationing these past four years. But because we have had 
storage, we have been able to manage through that and work 
through this drought. The state needs more storage. We need 
more storage throughout California, and we appreciate how both 
of those bills are looking at that.
    Finally, Senator Feinstein's bill really takes a focus on 
recycling, reclamation, other projects. We would applaud that 
effort. Obviously, we know money is tight, but we think those 
are real critical measures that we can do.
    So our board has supported the Feinstein-Boxer bill. Our 
board has not taken a position on the Valadao bill, but we want 
to work with both offices and try and come up with a compromise 
solution that works for all of California.
    So thank you for your time. Thank you for your attention to 
this incredible issue, and I stand prepared to answer any 
questions that you have.
    Thank you.
    [The prepared statement of Mr. Kightlinger follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Mr. Kightlinger, thank you very much. we 
appreciate it.
    Ms. Woolf.

 STATEMENT OF SARAH WOOLF, PRESIDENT, WATER WISE, AND PARTNER, 
                     CLARK BROTHERS FARMING

    Ms. Woolf. Good morning, Chairwoman Murkowski, Ranking 
Member Cantwell, and Senators of the committee. I was honored 
to be invited to testify today before the committee, and I am 
hopeful that my remarks can help facilitate progress on 
critical legislation you have before you because entire 
communities are depending upon you to find a resolution.
    I am a second-generation farmer. My two brothers and I grow 
tomatoes, garlic, and onions in Fresno County. My husband, who 
is here with me today, is also a farmer in his family business, 
and we both farm in the Westlands Water District.
    While our farms rely on some seasonal employees, many of 
our employees are long-term and have been with us for many, 
many years.
    I know that in June you received testimony from another 
fellow farmer, Cannon Michael, who explained the impacts of the 
water crisis facing California agriculture. At that time, he 
discussed many of the key facts associated with the water 
challenges facing California farmers, and he explained that 44 
percent of California's 9.6 million acres of irrigated farmland 
are receiving zero surface water. I am one of those farmers. 
Almost 75 percent of the state's irrigated farmland, nearly 
seven million acres, will receive 20 percent or less of this 
normal water supply and 692,000 acres of farmland were fallowed 
in 2014.
    There are very significant facts for you to consider. 
However, I also want to bring to your attention the impacts 
felt by individuals who live and work in the cities and 
communities without water, people without jobs and business 
owners recognizing they potentially have no future. The fear 
and despair in people's eyes today is real, and it is heart-
wrenching. And Senator Murkowski, you referenced it. I know 
this because I spend a lot of time working in these 
communities.
    These people are Californians, and they are working hard to 
produce the basic necessities for our country and our world 
and, of course, for themselves. They work the land while trying 
to improve our schools and our communities. Many of them have 
come to our country recently and others from many generations 
before, but all with the hope of improving the lives of their 
families. They want the opportunities that all Americans want: 
an education and an opportunity for a better life.
    If our elected representatives are responsible for 
anything, it should be to provide the most basic of needs: 
water, access to schools, and most importantly, the ability to 
work. Without these basic needs, residents of our communities 
are forced to live in tents made of pallets behind minimarts 
and on the sides of railroad tracks and stand in food lines on 
a weekly basis to fulfill those basic needs. We cannot be the 
land of opportunity while communities lack water and residents 
are actually showering in church parking lots.
    What makes our water situation so disturbing is that many 
of these negative effects have been imposed on our community 
not by Mother Nature but as a direct result of conscious policy 
decisions.
    Before you today, you are hearing H.R. 2898, the Western 
Water and American Food Security Act, and Senate bill 1894. I 
believe that both of these bills address our issues very well, 
but we have to go further. We have to have some legislation 
because we are running out of time. So to that end, I want to 
provide some constructive suggestions.
    Last year, a broad cross-section of local community 
leaders, such as the Mayor of Fresno and growers from all over 
the Central Valley, came together to provide a unified set of 
concepts that we believe would be helpful for bridging the 
differences between last year's bills and this year's bills. 
And to that extent, the same group of growers has put together 
a letter that I believe you received yesterday, but I brought 
copies again for you today, asking for five critical points.
    Provide congressional discretion concerning the operation 
of the Central Valley Project and the State Water Project to 
ensure sufficient operational flexibility to restore water 
supply and water supply--excuse me--water supply reliability. 
The operations of these projects must be able to capture water 
from the delta during periods of higher flows and move water 
from north to south in a rational way.
    Extend the provision of any legislation for a period of 
time that will allow communities to establish sound long-term 
water supplies for their future.
    Establish a process that could lead to increased storage in 
a reasonable timeframe.
    Ensure the additional burdens are not placed on the State 
Water Project as a result of congressional action.
    And finally, recognize the reasonableness and efficacy of 
the San Joaquin River Restoration Program must be reevaluated 
in light of changing conditions.
    Both bills address most of these issues, but I believe the 
House proposal gives better direction to the agency on how they 
should operate the projects and is a bill that, unlike the 
Senate bill, offers permanent solutions. Nevertheless, we think 
the differences are surmountable and will--and are interested 
in finding a resolution.
    Again, thank you all for your invitation today to testify, 
and I am prepared to answer any questions.
    [The prepared statement of Ms. Woolf follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Woolf. I appreciate your 
attention to the human aspect in very clear terms. Thank you.
    Mr. Keppen, welcome.

   STATEMENT OF DAN KEPPEN, EXECUTIVE DIRECTOR, FAMILY FARM 
                            ALLIANCE

    Mr. Keppen. Good morning, Madam Chair, Ranking Member 
Cantwell, and members of the committee.
    My name is Dan Keppen, and on behalf of the Family Farm 
Alliance, I thank you for this opportunity to present this 
testimony today.
    Our organization has a long history of collaboration with 
constructive partners in all levels of government, with 
conservation and energy organizations, and with Native American 
interests who seek real solutions to water resources challenges 
in the 17 Western states.
    Policymakers and problem-solvers work with our members 
because they deal with realities of the arid West at the ground 
level every day. They are the men and women who run farms, 
ranches, and irrigation districts. They are people for whom 
scarcity is a fact of life and cooperation and innovation are 
tools of survival.
    Last summer, California farmer Cannon Michael represented 
the Alliance at this hearing and testified before this 
committee--actually, before this committee on the Western 
drought. He emphasized the drought challenges faced by him and 
his neighbors like Sarah in California's Central Valley. Since 
Mr. Michael testified in June, things have continued to worsen; 
however, the recommendations he provided are still relevant 
today.
    In order to respond to current and future water shortages, 
we believe Congress should provide Federal agencies with more 
flexibility under existing environmental laws and regulations 
to encourage a cooperative approach toward achieving multiple 
goals. And where such flexibility currently exists in law, 
Congress should demand that agencies use it promptly and with a 
minimum of bureaucratic nonsense. Time is of the essence when 
making water management decisions during a drought.
    Western drought legislation should shift the regulation of 
water resources away from the current adversarial structure and 
toward an approach that produces better results through 
cooperation and innovation. This includes promoting the use of 
new technology and water management. Real-time monitoring and 
data collection can be used to align water supply operations to 
actual fishery and environmental needs.
    Agencies need to address non-flow stressors in the Bay 
Delta environment, especially non-native fish that prey on fish 
species protected by the Endangered Species Act.
    Finally, we must invest and reinvest in the Western water 
infrastructure necessary to meet current and future demands. 
Our existing water infrastructure is aging and in need of 
rehabilitation. We need new water storage in order to adapt to 
changing hydrology and develop usable and sustainable supplies 
to meet growing demands for water.
    Streamlining regulations and permitting processes can help. 
The Federal Government can continue to be a partner in solving 
these water problems in the West by using financial mechanisms 
that have very low Federal cost and make water resources 
investment more attractive and affordable for non-Federal 
entities.
    Taken together, the bills before the committee today 
incorporate nearly all of these elements, and the Alliance 
commends the authors for their hard work and foresight. H.R. 
2898 provides for more flexible, multipurpose drought water 
management in California's Central Valley. It offers a path for 
water users in California and other Western states toward 
streamlining regulatory hurdles and encouraging the development 
of crucial new water storage projects, and it upholds and 
protects state-based water rights.
    In addition to its California Delta-focused sections, H.R. 
2898 contains a number of provisions that would apply 
throughout the West. The bill would streamline permit decisions 
and authorize expedited procedures to make final decisions on 
operations in water projects that can maximize water supplies. 
H.R. 2898 provides new authority for agencies to approve 
projects that normally would require congressional 
authorization. It also directs the development of a Drought 
Operations Plan.
    The Family Farm Alliance has always taken the position that 
the Western system of prior appropriation still fundamentally 
works. We are pleased that the drought legislation before the 
committee today includes specific provisions intended to 
protect water rights holders.
    H.R. 2898 is a large, detailed bill that aggressively and 
constructively attempts to tackle the drought challenges of 
California's Central Valley and also provides solutions that 
will assist other Western states. We support the intent and 
vast majority of the bill's provisions.
    The Congress and the Federal Government certainly cannot 
change the hydrology of the West, but there is a role it can 
play to support family farmers and ranchers. As the committee 
continues its efforts to address the current drought and 
develop policies to improve water management in the long-term, 
we ask that you consider the observations and principles that 
are outlined and further detailed in our written testimony.
    The House has passed H.R. 2898 to address this crisis, and 
California Senators have introduced S. 1894; however, two 
separate bills are of absolutely no value to a parched West. 
What is needed is a single bill that can be enacted by Congress 
and signed into law by the President, and unfortunately, time 
is not on our side. We must all work together to ensure that 
Western water users have every tool available to survive and 
recover from the current drought and the hard, dry years that 
the future may hold.
    Thank you, and I would stand for any questions you may 
have.
    [The prepared statement of Mr. Keppen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Keppen.
    Mr. Frank, welcome.

STATEMENT OF RICHARD FRANK, PROFESSOR OF ENVIRONMENTAL PRACTICE 
   & DIRECTOR, CALIFORNIA ENVIRONMENTAL LAW & POLICY CENTER, 
         UNIVERSITY OF CALIFORNIA, DAVIS SCHOOL OF LAW

    Mr. Frank. Thank you, Chairman Murkowski, Senator Cantwell, 
members of the committee.
    With the beginning of a new water year on October 1st, 
California has now officially entered into its fifth year of 
drought, which is, as has been mentioned by other speakers, the 
most pronounced and protracted and severe in the state's 
recorded history.
    The good news is that the State of California, its 
political leaders, water managers from the Federal, State, 
regional, and local levels, and 39 million Californians have 
done a pretty darn good job in responding to the challenges of 
that drought.
    The--perhaps counterintuitively, the economy of the State 
of California has surged and has a remarkable recovery over the 
same period when we have been experiencing this five-year 
drought. Urban water districts are managing and handling the 
drought especially well, due to the visionary leadership and 
foresight of folks like my friend and colleague, Jeff 
Kightlinger.
    California agriculture overall has done pretty well in the 
face of these drought challenges as well. Senator Feinstein 
mentioned a study that had just been released by my faculty and 
research colleagues at the University of California at Davis, 
which concludes that California's $46 billion per year 
agricultural industry remains robust. That is really due to 
three factors: an increase in the number of water transfers 
among the agricultural community; a transition to higher-value 
crops in the Central Valley, primarily almonds, walnuts, and 
grapes; and third, and perhaps most important, an increased 
reliance on groundwater pumping and groundwater, which has 
replaced and offset approximately 70 percent of the reductions 
in surface water supplies from the Center Valley Project and 
the State Water Project.
    That is not to say that there are no losers in this 
drought. As has been mentioned, some small rural communities in 
the Central Valley have been hit especially hard, some 
tragedies there. The biggest loser, in my view, has been the 
environment--the water birds that depend on the Pacific supply 
way and the water refuges of the Great Central Valley that are 
currently parched; our native fish species in California, which 
are in devastating crisis right now; and an unprecedented 
number of tinder-dry forests that are erupting into wildfires, 
a problem which, of course, is not limited to California but is 
being experienced this year throughout the American West.
    I want to spend--turn my attention and spend the rest of my 
time talking about some common virtues of the two bills, 
several concerns I have with House bill 2898 and why I believe 
the Senate bill is a preferable option. In terms of the common 
virtues, both bills require the preparation and completion in 
the very near term of feasibility studies of surface water 
projects and other efforts. Those projects have been discussed 
in the abstract for a long time, but getting down to basics and 
seeing if they pencil out economically and make environmental 
sense is welcome.
    Both bills address the particular problems of invasive and 
predatory species, which has had a devastating economic and 
ecosystem effect, particularly in California's delta. Some, but 
not all, of the proposed steps in the bill is to expedite 
environmental review of proposed drought--emergency drought 
response efforts similarly make sense.
    Let me turn to some concerns I have identified with respect 
to House bill 2898. At the end of the day, the bill is a 
straightforward reallocation of finite surface water supplies 
from environmental programs to agricultural purposes. And I 
would submit there are three thematic deficiencies with that 
approach.
    A better approach, it seems to me, is to expand the pie to 
work to create additional water supplies through recycling, 
reuse, desalination, and conservation projects.
    Second, what all water users want and need--agricultural 
users, urban, conservationists--is greater certainty. And I am 
concerned that several of the proposals in the House bill would 
undermine that certainty and create additional litigation and 
uncertainty.
    Third and finally, and as you have heard from both Federal 
and State water managers, in the face of this drought, day-to-
day, real-time coordination and operation by Federal and State 
water managers is critical. I am concerned that some of the 
provisions of the House bill will undermine those collaborative 
and successful efforts by Federal and State water managers.
    Some specific concerns about the bill: legislative 
amendments to the biological opinions for delta smelt and 
salmon seem quite troublesome and set a disturbing and 
unfortunate precedent, as do a number of the bill's proposed 
amendments to the Endangered Species Act specific to 
California; some significant undercutting of the Central Valley 
Project Improvement Act of 1992, one of the most significant 
environmental pieces of legislation, at least to Californians, 
in the last quarter-century; and finally, the repeal of Federal 
participation in implementing the San Joaquin River settlement. 
I share Senator Cantwell's concerns that if that is passed, the 
parties will return to their litigation foxholes, and we will 
have more costly, expensive, perhaps unending litigation.
    By contrast, the Senate bill doesn't contain any of the 
specific infirmities I have identified. It does expand the 
water supply pie, including not just new surface storage 
projects but also raising the height of the existing dams and 
reservoirs, critically important looking at groundwater storage 
as an additional alterative, which in many cases is going to be 
more cost-effective and can be undertaken more quickly than new 
surface storage projects, stormwater recapture, desalination, 
and the like; the Federal support for integrated regional water 
management strategies; and additional welcomed support for 
Federal and State water managers in California.
    And last and finally, and again addressing what the Senator 
has mentioned before, the--some of the--Senator Feinstein, that 
is--addressing the drought-stricken rural communities that have 
paid a particular burden and are deprived of regular water 
sources in the drought. Those folks need immediate help, and 
the Senate bill does that.
    Thank you very much for the opportunity to testify. I would 
be glad to answer any questions the committee may have.
    [The prepared statement of Mr. Frank follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Frank.
    Mr. Oglesby, your comments, please. Welcome.

STATEMENT OF ADRIAN OGLESBY, DIRECTOR, UNIVERSITY OF NEW MEXICO 
 UTTON TRANSBOUNDARY RESOURCES CENTER, AND VICE-CHAIR, MIDDLE 
                RIO GRANDE CONSERVANCY DISTRICT

    Mr. Oglesby. Good morning, Madam Chair, Senator Cantwell, 
members of the committee and staff.
    I would like to actually start by introducing the Chairman 
of my Board at the Middle Rio Grande Conservancy District, 
Derrick Lente, and our new Chief Engineer and Chief Executive 
Officer, Mike Hamman.
    The Middle Rio Grande Conservancy District, we irrigate 
approximately 65,000 acres in the Middle Valley around the 
Albuquerque area. I will start with a little bit of good news. 
New Mexico has emerged this year from the worst drought in 
history. Half of the state is considered to be out of 
abnormally dry conditions, although half of the state still is 
in abnormally dry conditions.
    I am very pleased to be here talking about the New Mexico 
Drought Preparedness Act, and I am very grateful to Senator 
Heinrich and Senator Udall for sponsoring this bill. It has a 
lot of good ideas in it that we have been talking about for a 
long time.
    The first that I will touch upon is the Water Leasing 
Program. This is a voluntary program that we contemplate 
establishing in our district. And we have been talking about 
this for about 15 years in our valley, and to be quite frank, 
our Conservancy District has opposed a voluntary leasing 
program because we saw it as a capitulation to the 
environmental community. We now realize that we need to give 
our farmers every tool in the toolbox so that they can survive 
times of drought and, frankly, just times of hardship.
    If a farmer needs to take a year off to take care of his 
sick wife, a leasing program will give him an opportunity to 
make something come off of his water and return to farming 
rather than just sell out. And that is important to us, to keep 
these farms and production in the future after times of 
hardship.
    It is also a matter of recognizing that these are private 
property rights, and it is not our business to tell our farmers 
what to do with their water. We think that they are smart 
enough and we certainly respect them enough to open the door to 
this program.
    And we appreciate the help that this bill gives us in terms 
of technical assistance and in terms of financial assistance, 
although we have committed to taking the lead on this program. 
So we are not looking for a handout, we are just looking for a 
little guidance. Some examples from around the West could help 
us move this forward.
    The bill also touches upon water conservation, primarily 
focusing on metering. You cannot manage what you do not meter, 
and we could be doing a lot more metering in the Middle Rio 
Grande and all across New Mexico. And this bill does affect all 
of New Mexico. Forgive me if my testimony is a little Middle 
Rio Grande-centric.
    There are some other interesting aspects of it. We actually 
plan on realigning the Rio Grande itself, moving it out of its 
existing channel where it is awfully high and we are losing a 
lot of water to seepage. There are sections that we need to 
move to lower parts of the valley. This is dramatic, but it has 
been done before, and we need to do it again. And we also need 
to do this because we have an odd situation where we have a 
National Wildlife Refuge that often is irrigating when the 
river right next to the refuge is dry. By doing some 
infrastructure changes and moving the river, we think we can 
help to alleviate that strange situation.
    And again, the District is partnering closely with our 
Federal agencies on this, and in fact, we have committed 
$500,000 a year of our own money to doing metering and 
efficiency improvements. So we are walking hand-in-hand with 
the Federal Government on this one.
    An interesting portion of this bill is the peak flow 
restoration. We have heavily modified the Middle Rio Grande. At 
the top of our valley, we have Cochiti Dam, and Cochiti has 
stopped the spring flows from coming down. The Rio Grande is a 
snowmelt-driven river, and those high-pulse flows used to 
trigger the spawning of our endangered silvery minnow, and the 
overbank flows would reinvigorate our Bosque. That is what we 
call the riparian forest in New Mexico that several endangered 
birds rely upon. Without those peak flows, I believe we will 
not be able to recover the silvery minnow, and we will lose our 
riparian forest, or at least the wonderful riparian forest we 
have today.
    We need to operate pulse flows out of Cochiti. We have done 
this for the last few years. We have seen success from this, 
but we need the Corps of Engineers to have a reauthorization of 
Cochiti Reservoir. We have been doing this under deviations, 
and so we are asking for five years of deviations in the future 
and then a reauthorization of Cochiti. We do want to work very 
closely with Cochiti Pueblo and Santa Ana Pueblo, who are 
directly impacted by this, and so we are walking hand-in-hand 
with them as well.
    Again, our District is not just looking for a handout here. 
We have committed $150,000 a year of our own money to look at 
the science behind these aspects.
    The other very important--and if you will allow me just 
another moment, Madam Chair--a very important concept in this 
bill is the reservoir study. We have seven reservoirs in our 
Rio Grande system, each with independent authorizations and 
each with specific functions. So our hands are tied in how we 
can coordinate the management of those reservoirs.
    We would like to analyze how we can use all these 
reservoirs in a conjunctive way, how we can maximize and 
optimize the operations of these reservoirs. We think that 
there are opportunities that we are missing because of the 
Federal legal restrictions on how we operate these reservoirs.
    So I will just jump to the end and give you what I consider 
to be just a little bit more good news. We are working together 
in New Mexico, and that has not always been the case. And I 
will be honest. It is not always pretty, and it is not always 
fun, but we are working together.
    I think we are moving away from what has been 15 years of 
fish-versus-farmer and are realizing that now is the time when 
it is the fish and the farmer versus changes in precipitation, 
urbanization. And so we are very pleased to see that our 
Senators are seizing this opportunity, that we are taking 
advantage of the crisis of the drought so that we can survive 
this drought and that we can thrive through the next drought.
    So thank you very much, and I look forward to our 
discussion.
    [The prepared statement of Mr. Oglesby follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Oglesby. It is always nice to 
end the panel on a little bit of good news, so I appreciate you 
sharing that with us.
    As I listen to the six of you and the comments on the 
various pieces of legislation that we have in front of us, I 
think it is very clear we do have a different approach that is 
reflected through the Senate bill and then the House bill. 
There are some areas of clear agreement, and I think it is 
always good to recognize that if we are going to build the 
legislation that is going to be necessary to address the 
challenges--and I believe very firmly that we must define this 
legislation and work to advance it--that we have got some 
things that we can be building on.
    Clearly there is a role for technology to play here. We 
have heard that from just about everyone. I have had an 
opportunity to see at least from the agriculture perspective 
and visiting with some of the farmers out there, to see what 
they have done to cut back on their water use. It is really 
quite dramatic and very, very impressive.
    When we think about the technologies, desalination I think 
we all recognize is going to allow for a game-changing approach 
to how we deal with water and water supply. Recycling, again, 
another area where our technologies will allow us to do more 
with, unfortunately, what we continue to see is much less 
coming from Mother Nature herself. So this is an area where I 
would hope that we can be working to enhance.
    The storage issue I think is, again, an area where we 
recognize that when we have the ability to provide for that 
storage, it allows us to make it through some of the highs and 
the lows and kind of softens some of the impact at a time of 
shortage. So how we can work to build out that is also key.
    I want to ask you, Mr. Connor, because clearly we have some 
real differences, and I appreciate that. I am pretty sure that 
I heard from each and every one of you that the way we are 
going to figure this out in terms of legislation is by working 
together, that it will require collaboration, and what you 
spoke to, Mr. Oglesby, about what you have seen in New Mexico 
can be something for us to look to.
    So I have cited a couple of areas where I think we have 
some room to work here. You have indicated that you are happy 
to be working with the bills' sponsors, with the committee on 
some of the concerns that have been raised with key aspects of 
both bills.
    Can you cite to some additional areas, Mr. Connor, where we 
can be working together on some of the common areas and how we 
can start from a good position of agreement rather than 
starting this off with arguing about what we do not like in it? 
Where else can we be building together?
    Mr. Connor. Thank you, Madam Chairman.
    You mentioned a couple on the expanding water supply front, 
which I do think are very key areas, important tools that we 
can apply. So I just want to double-down on your indication 
that you thought you heard that those are areas you can work 
on. Desalination, a new approach to storage I think is 
appropriate to look at at this point in time, and so we do 
endorse those with respect to our testimony.
    Other areas: expanded reuse and conservation activities we 
are strongly supportive of within those bills. The provisions 
that would also reflect a need to restore habitat in 
conjunction with those programs, I think, are very supportable.
    I think where we have the most stark differences are 
legislatively how do you deal with water operations and how do 
you reconcile the environmental laws and our operational plans 
and deal with that in the context of drought?
    The Chairman. Do you think that that is reconcilable? I 
mean, you point out that it is hard. I agree it is hard.
    Mr. Connor. It is----
    The Chairman. Can we work through this?
    Mr. Connor. It is a tough area to deal with because we 
think--and I think you heard from Mr. Kightlinger here, and I 
very much agree--we have gone kind of through an evolution here 
over the last few years in our operations in the Bay Delta. In 
'09-'10 when we were in a drought situation, we were litigating 
about the biological opinions. We were not talking on a daily 
basis, a weekly basis about operations. We were operating, and 
we were preparing for depositions. It was not a good dynamic.
    In late '12-'13 when we started getting hit with this new 
drought situation, we had kind of been on the waning side of 
that litigation, and we had the situation that Jeff referenced, 
which was loss of pumping because of locations of smelt, and 
we, under biological opinions, ratcheted down.
    I think we did lose more water in that situation than we 
should have if we had been communicating and working and 
looking at the data closely. I think we have come a long way in 
'14 and '15 in increasing the science, the data that we make 
our decisions on, communicating better, and, as Jeff pointed 
out, wringing every drop out of the system while maintaining 
our compliance with the environmental laws.
    So my point is we don't want to go back to a situation 
where we are creating opportunities to litigate. We think the 
House bill does that. We have some concerns with the Senate 
bill, which I think can be worked through on that front.
    And we have got to try and memorialize this process because 
the biggest change has been the Federal Government and the 
State Government working hand-in-hand on a daily basis and then 
extending that with the water user community and other folks 
interested in the environmental issues. How can we make sure 
that process continues? I think that is what we need to look at 
from an operational standpoint.
    The Chairman. I am going to have more questions, but I will 
turn to colleagues.
    Senator Cantwell.
    Senator Cantwell. Well, thank you, Madam Chair.
    I think continuing on that same point because it is so 
good, Mr. Connor, to hear you talk about the things that we do 
agree on. And I want to thank all the witnesses because I know 
what a challenging situation this is for California and for the 
whole West in dealing with this.
    I think that expanding the pie and modernizating storage is 
one of the biggest opportunities. We are kind of stuck in a 
1960s concept of storage, and I think the innovation that can 
come in new methods of storage is very, very helpful. 
Definitely reuse and conservation, habitat, all of those things 
are important.
    But following up on this question because I do, like many 
of the aspects of 1894, have concerns that Mr. Frank mentioned 
and you mentioned about the House bill. It is my understanding 
that delivery has been curtailed due to the delta smelt 
biological opinion since 2013 and that water diversion for 
salmon only accounted for less than two percent of the water 
restrictions.
    So what I am trying to get at here is that I think some 
people would like to come here and promulgate this notion that 
this is all about the ESA when, in reality, it is about the 
fact that we are in a drought and what we are going to do about 
it, and the fact that we want to stay out of the litigation 
process because it might make everybody feel good to pass a 
bill like that, but the end result of litigation will just put 
us into the do-nothing category, which will put us further and 
further and further behind.
    So if you could comment on that, either Mr. Connor or Mr. 
Frank.
    Mr. Connor. Absolutely. I think the litigation is a path 
that is never-ending. I think even if--when it results in a 
decision, it results in a single decision on a single point 
that leaves the rest of the issues to be continually litigated. 
And so from that standpoint, I do agree 100 percent that we 
want to avoid that path in whatever situation, whether it is 
California, whether it is New Mexico. And we are seeing 
progress when we do that.
    With respect to the Endangered Species Act, I think the two 
percent figure you referenced was from me in past statements, 
and I think it represents a little bit of bad math, but it is 
four percent with respect to 2014. What we looked at was--and 
the Bureau of Reclamation is accounting for this now. The 
operational adjustments that we make during the course of a 
water year, what are due to general permits that we have to 
operate under, what are due under the biological opinions?
    In 2014, we reduced pumping in a manner that was about--
amounted to about 62,000 acre-feet of water under the salmon 
biological opinion. Those were specific reductions that we made 
according to Bureau of Reclamation's calculations. That was the 
loss of pumping and supply to the Central Valley Project.
    We estimate that--the Central Valley Project I think in 
2014 pumped about half of what it normally does pump, and I 
think it was somewhere around--or less than half. It was a 
million acre-feet, where it pumps typically about 2.5 million 
acre-feet. Of that reduction in pumping that was lost because 
of hydrology because of the drought, it is about 1.5 million 
acre-feet. That 60,000 acre-feet represents about four percent.
    Senator Cantwell. And the smelt----
    Mr. Connor. So it is a very small----
    Senator Cantwell. And the smelt was----
    Mr. Connor. The smelt was not a factor for reduction of 
pumping in 2014. In 2013, the numbers were larger. It was a 
little over 300,000 acre-feet, and about half was due to the 
smelt biological opinion, about half was due to the salmon 
biological opinion.
    Senator Cantwell. Do you think that S. 1894 has the 
programs that, you know, we have implemented a lot at the state 
level in Washington with farmers and fishermen working 
together? Do you think there is a lot of flexibility in S. 1894 
for that kind of creativity?
    Mr. Connor. I do think it certainly leads us to more in the 
cooperative efforts that we have been doing over the last few 
years. It is trying to convene the parties through these 
processes to try to adaptively manage, trying to encourage us 
to make sure that our decisions are transparent and they are 
based on the best-available science, yes.
    Senator Cantwell. Well, I definitely, when it comes to 
Federal dollars, would rather put things on the table to get 
people to work together than spend money defending lawsuits. I 
think it is a better use of everybody's money.
    Thank you.
    The Chairman. Senator Flake.
    Senator Flake. Thank you, Madam Chair.
    While a lot of the media attention has been focused on 
specific worst-case scenarios related to the drought, I am 
pleased that the Chair is committed to move forward on a West-
wide drought bill that addresses the water needs throughout the 
West.
    In preparation for this and with an eye toward the present 
problems and the coming realities of water in the West, I have 
sought over the last 18 months to put together a consensus of 
Federal water policy provisions that would be beneficial to 
Arizona. In Arizona, we have benefited over the past several 
decades from many forward-looking leaders who have planned well 
and have prepared the state well for the droughts that are here 
and certainly to come.
    Senator McCain and I have worked with the Governor's office 
and former Senator Kyl and other stakeholders in developing a 
series of ideas that I hope will be incorporated into bills 
that we are discussing today. Several of these ideas were built 
on portions of the drought bill that was passed in the Senate 
last year by unanimous consent, and others will expand concepts 
that are included in the California-focused bills that are 
currently before us.
    We will seek to address water-intensive invasive species 
that plague a number of rivers in Arizona and throughout the 
Southwest. In addition, there are several items that will allow 
for targeted forest restoration in critical watersheds. There 
is also a provision for a pilot project to allow more efficient 
use of current water storage in reservoirs.
    Now, fortunately, a wet May has made the shortage 
declaration in this year unlikely. I think we can all agree, 
however, that we could well see such a declaration in the near 
future. Arizona, along with the other basin states, is looking 
forward and looking for ways to avoid that shortage 
declaration.
    Thus far, the most promising efforts have included states 
voluntarily leaving some of their water--some of their state's 
water entitlement storage in the Colorado River. The number-one 
priority in Arizona is to make sure that when Arizona or any 
other state voluntarily contributes their water to the health 
of the Colorado system, the contributed water actually stays in 
the system and does not disappear along somebody else's canals.
    Now, without these assurances, obviously such preventive 
measures do not make sense. It would be like having a savings 
account and seeing your neighbor just being able to reach in 
and grab money from it.
    While not all the lower-basin states are affected by the 
shortage declaration in the same way, I am hopeful that we can 
agree on a way to ensure that these voluntary contributions 
actually do what they are intended to do.
    I appreciate the attention on this issue, the entire issue, 
of drought in the West, and I look forward to the process and 
looking for meaningful solutions.
    Just as a question to Deputy Secretary Connor, as I 
mentioned, the number-one priority I have heard from Arizona is 
to protect the legal status of water left in Lake Mead through 
these voluntary arrangements that I referenced and with the MOU 
that you referenced during your testimony here on June 2nd.
    There is, however, some concern that the Secretary has 
discretion to choose to reprioritize the so-called system water 
created under these arrangements or agreements. What assurances 
do the lower-basin states have that the Secretary would never 
agree to reprioritize system water for delivery in the same 
year instead of that water remaining in Lake Mead?
    Mr. Connor. Thank you, Senator Flake, for the question.
    I think the assurances are based on the practice that has 
come to be the custom in the Colorado River, and we have at the 
Department deferred in a number of situations going past--going 
back across Administrations in 2007 with the seven-state 
agreement that led to the Record of Decision on coordinated 
operations and shortage-sharing. We operate pursuant to that 
and have incorporated that into our decision-making guidelines.
    So the state's agreement has been the model for us to 
operate, and we have not since 2007--the Secretary has not 
exercised any discretion to unilaterally allocate any unused 
allocation since that time.
    So as we move forward and we very much appreciate the 
efforts of all the states, including Arizona, of looking at 
ways to create new water in Lake Mead for the benefit of the 
system, not any particular state, of how we lock in that by 
agreement amongst the states and the Federal Government and 
operating pursuant thereof, I think those discussions are going 
on right now.
    It is the standard mode of practice that we would adhere 
to, and we would try and ensure that, you know, it is always 
going to be--I can give you my word, but as of January 2017, it 
is not going to mean much in the basin. So it is how we lock it 
in through agreements that can sustain itself across 
administrations.
    Senator Flake. Right. You are right. That always has been 
the custom that has been followed to look at the agreements 
that are there, but is there a severe enough level of drought 
somewhere in the basin that would justify, in your view, the 
Secretary using that discretion to remove water that has been 
put there for storage?
    Mr. Connor. In any situation, absent an agreement, the 
Secretary is going to consult very closely with the seven basin 
states, particularly the lower-basin states in the use of any 
unused allocation. I think that is the practice even before 
2007. So I wouldn't speculate right now that there is a 
situation where I say--where I would say we would override that 
consultation process and move unilaterally.
    Senator Flake. All right. Thank you, Madam Chair.
    The Chairman. Thank you.
    Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chair.
    Mr. Oglesby, I want to touch on a couple of things. In New 
Mexico, as you know, we have often found that voluntary 
agreements and collaborative efforts are more effective at 
resolving these water conflicts than mandated management 
requirements. A great example is not in your basin but in the 
San Juan Basin. We have a very successful collaborative effort 
of Federal and State, tribal governments, utilities, water 
users, landowners, farmers, conservation groups, and others, 
and that collaborative group implements a recovery plan for 
four endangered fish in the Upper Colorado Basins.
    Can you just talk from your perspective in the Middle Rio 
Grande Valley a little bit about the value of voluntary 
collaborative efforts as a solution to some of these direct 
water conflicts?
    Mr. Oglesby. Certainly. Thank you, Senator Heinrich.
    I appreciate you using the San Juan recovery program as an 
example. I was pleased to serve on the executive committee 
there for a while.
    And we actually are trying to convert our endangered 
species program in the Middle Rio Grande Valley into a recovery 
implementation program based on the success they have up there. 
We are making progress on that. I suspect in the next few 
years, we will be able to get there.
    There are other great examples of collaboration, and as you 
know, we in New Mexico don't like being told what to do. We are 
a very independent people. And so I might raise the 
Collaborative Forest Restoration Program as an example. We are 
protecting our watersheds in cooperation with our traditional 
communities, with our land grants and our acequias and having 
good success at it.
    Parallel to that at the state level, we have a piece of 
legislation that came out of our legislature with unanimous 
support last year to greatly expand the amount of forest 
restoration that we are doing in New Mexico. Our Governor did 
veto it based on some administrative concerns, but I think we 
can overcome that easily with some modifications to that 
legislation.
    But, yes, you know, folks in New Mexico, we like to work 
together, we like to help our neighbors, but we like to do it 
on our own terms.
    Senator Heinrich. Thank you.
    I want to turn to Deputy Secretary Connor real quickly, and 
obviously, we look forward to working with you on some of the 
technical concerns with the New Mexico bill, and very much 
appreciate your feedback on that.
    I want to switch real quickly to an issue of just how we 
best spend what are obviously very limited taxpayer dollars in 
resolving some of these shortage issues. Recently the Bureau of 
Reclamation conducted a value-planning study of the proposed 
diversion project on the Gila River in New Mexico. How much 
should we expect that the proposed diversion project would cost 
according to that study? What is the range that it found?
    Mr. Connor. Reclamation has looked at that at the appraisal 
level, which is a very, you know, preliminary level of 
analysis. But the range is somewhere in the neighborhood of, I 
believe, $600 million to over $1 billion for a new diversion 
project on the Gila River system.
    Senator Heinrich. At least in the initial report, it was, I 
believe, $685 million up to a billion and change. Now, of that, 
the available Federal funds under the settlement would be about 
$128 million. Is that correct?
    Mr. Connor. Yes. Under the Arizona Water Settlement Act 
passed in 2004, there would be the opportunity for up to $128 
million. That was dependent--that last $28 million was 
dependent upon return on investment in the Lower Basin 
Development Fund being at a certain level, which it has not 
been.
    Senator Heinrich. Right.
    Mr. Connor. So I think we are looking more at the 
eligibility being $100 million----
    Senator Heinrich. Okay.
    Mr. Connor.--as opposed to the 128 figure.
    Senator Heinrich. So if you take those figures, you take 
$685,000 up to a billion, you subtract out $100 million, and we 
are still talking about $500 million to almost $900 million in 
costs that are not covered. Where would the balance of that 
funding have to come from? Would it be from State and local 
contributions, or how would that----
    Mr. Connor. Yes----
    Senator Heinrich.--enormous delta be covered?
    Mr. Connor. I think given the Federal funds available 
already, that there is not a good expectation that there would 
be additional Federal funds available for this project. So, 
yes, it would be State and local funds that would be needed to 
finance that particular project. The balance, as you 
referenced----
    Senator Heinrich. And----
    Mr. Connor.--over $500,000.
    Senator Heinrich. If I remember right, last year 
Reclamation also looked at the cost-benefit analysis of that. 
Did that report find that the benefits outweighed the costs for 
any of the proposed diversion configurations?
    Mr. Connor. I believe that is correct. The preliminary work 
on feasibility did yield a questionable cost-benefit where the 
costs were--greatly exceeded the benefits. That work would be 
shored up in more detail in an EIS process that is being 
contemplated, but that was the preliminary analysis.
    Senator Heinrich. Thank you.
    The Chairman. Thank you, Senator Heinrich.
    I believe it was Senator Gardner that was next. I just want 
to make sure. Yes, Senator Gardner?
    Senator Gardner. Thank you. Thank you, Madam Chair. I am 
happy to----
    The Chairman. Oh, wait----
    Senator Gardner. I was going to say, I am happy to yield to 
Senator Daines.
    The Chairman. Senator Daines.
    Senator Daines. Thank you, Madam Chair.
    Our witnesses today testified about the challenges 
associated with inadequate water management in the West, and 
being a Montanan, we, too, have seen the effects of drought 
this year. If you look at the maps, certainly what has gone on 
in California and the Central Valley, you know, is very, very 
severe. But that drought pattern continues up certainly the 
North in Oregon, Washington, and then it really takes about the 
third of our northwest part of our state included in this 
current drought.
    In June, this committee heard testimony on two bills, which 
I have cosponsored. One is Senate bill 1552, the Clean Water 
for Rural Communities Act; and Senate bill 15--or, excuse me, 
1365, the Authorized Rural Water Projects Completion Act. 
Combined, these bills would facilitate water delivery to over 
23 million acres in Montana and millions more acres across the 
West for rural communities that do not have good access to 
quality water supply today.
    Now I do not have a question today but would just like to 
say that if we are going to address our droughts and water 
supply crisis West-wide, I believe these bills should be part 
of the solution. It solves the water challenges. It may also be 
part of forging a bipartisan coalition and package here to get 
something done.
    I understand some concerns from the Senators as well as the 
need for an offset. They do need to be addressed. But I would 
like to work with the committee and other colleagues on a path 
forward to these bills to ensure they remain part of the 
solution to our Western water challenges.
    I yield back my time, Madam Chair.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Madam Chair, and thank you to 
the witnesses for being here today.
    I just wanted to talk again about Colorado's situation. By 
2050, we are going to go to about 8.6 to 10 million people. Our 
population will double in the state by 2050.
    At the same time as our population is doubling, at least 
according to the 2015 Colorado Water Plan, construction of new 
storage capacity is the lowest it has been since the 1930's. So 
we know in Colorado population is going to double by 2050, yet 
water storage construction at the lowest it has been in several 
decades.
    Colorado is a state where all water flows out of Colorado, 
no water flows into Colorado, and I have a glass that is half 
full here. I would blame Kansas, but I do not want to impugn 
any of my fellow colleagues. But I think we have to do better 
when it comes to water storage to meet the need. We are looking 
at $12 billion to $15 billion worth of infrastructure costs in 
Colorado to meet the median needs of this 2050 demand.
    To give you a couple of examples, one project in Colorado 
that was started in 2003 for additional water storage completed 
their NEPA process 11 years later in 2014, and they still have 
Federal regulatory hurdles to clear.
    Northern Colorado Water District began the regulatory 
process for building two new reservoirs as part of the Northern 
Integrated Supply Project. This is a project that, if it is 
completed, will save tens of thousands of acres of farmland 
from buy-up and dry-up in Colorado. They started this process 
in 2004, and they are several years away from a final decision.
    Denver Water began the regulatory process for enlarging the 
existing Gross Reservoir in 2003, and they still do not have a 
decision.
    We had a hearing earlier this year with the Western 
Governors' Association. I asked about what we could be doing to 
help lessen these times. They confirmed we still need 
regulatory streamlining and flexibility at the Federal level to 
move forward.
    So to Mr. Connor, how can we improve and what can we be 
doing to stop talking about the need to streamline and actually 
start streamlining the regulatory process?
    Mr. Connor. Thank you, Senator Gardner.
    Two points that I would make: first of all, what we found 
even on the operations side--I was talking earlier about our 
operations in California--but it has transcended to the 
permitting side of things.
    The--you know, we have been siloed as a Federal Government 
for far too long where Reclamation would move forward with 
projects in our particular circumstances, then engage the Fish 
and Wildlife Service or the National Marine Fisheries Service 
or EPA in a--serial processes instead of a parallel process or 
a collaborative process. That definitely is a killer with 
respect to permitting times because issues crop up. They are 
not dealt with early, designs get made, and they have to be 
undone. It is a very inefficient process.
    What we have found where we have instituted new processes 
usually because of the magnitude of the issue where we have 
collaborated is that we can cut down on those issues, and we 
can cut down on permitting times.
    On September 22nd, the White House and OMB issued guidance 
on permitting large infrastructure projects, and it is really 
intended to institutionalize a collaborative process and have 
somebody running point on those large projects.
    Typically, we have a lot of examples, and I would even say 
that the Arkansas Valley Conduit is one where we fairly----
    Senator Gardner. I was going to let you off the hook on 
that today.
    Mr. Connor. I thought I would beat you to the punch.
    The permitting process was fairly efficient in that one 
with respect to the NEPA and Record of Decision. We got hung up 
on feasibility for a while, and we went back and redid that.
    So my point is, on the positive side, we have more work to 
do in our way that we collaborate within the Federal Government 
and all our different regulatory roles to permit projects.
    The second point I would just quickly make is we have got 
to understand sometimes what causes a delay. On the Windy Gap 
Firming Project, Reclamation was responsible for the Record of 
Decision and the NEPA work, working with Northern Colorado. We 
moved that process forward. The issues that took the longest to 
resolve at the end of that process were Reclamation using that 
process to resolve issues with Grand County with respect to 
water quality issues and with the Colorado River District with 
respect to water rights issues.
    We could have permitted and moved forward. My sense is that 
there would have been a significant amount of state litigation 
under state law with respect to that process, as opposed to us 
using the Federal process to resolve all the issues. Now we 
have got a Record of Decision as of December last year. 
Northern can move forward with the project.
    Senator Gardner. Well, I would just ask for your commitment 
to work with me on finding ways to continue to work through the 
regulatory process, the permitting process, to make sure that 
we can streamline this, what is, I think, taking too long. I 
would love your commitment on that.
    Thank you.
    Mr. Connor. Yes, Senator.
    Senator Gardner. Again, the Arkansas Valley Conduit, we 
will work on that, but it was authorized back in the 1960s so 
we have got to continue to speed it up.
    I wanted to talk a little bit more about some drought 
issues on districts and utilities in Colorado that have told me 
that when they talk about steps they could take to transfer 
water through Federal reclamation facilities to store and 
deliver emergency water supplies, they have run into a little 
bit of a challenge. One of the things I think we need to do in 
times of drought is having more flexibility to move and store 
water where it is needed most on a timely basis.
    But if there is a need for water transfer using excess 
capacity in existing Federal facilities, that can take 
extensive regulatory review and a time-consuming contracting 
process. So by the time, oftentimes, the approval and the 
contracting is through, the situation has changed and the 
proposed water transfer is out of date.
    I just wanted to know what is the Bureau's current 
authority to authorize the storage and transmission of non-
project water through existing reclamation facilities?
    Mr. Connor. We do have broad authority to facilitate the 
water transfers through reclamation facilities under the Warren 
Act, the 1939 reclamation projects. But typically, what we--it 
is the decisionmaking process under NEPA that we typically have 
to pay the most attention to. If the issues are minimal--which 
in a lot of cases they are, and we do a lot of water transfers 
every year--it is a four to six-week process.
    If--such as in California, where there is a need for large-
scale transfers on an ongoing basis, we have looked and done 
programmatic environmental impact statements, which really 
establish the program itself, and then we can quickly, in the 
subsequent years, go through and process transfer requests a 
lot more efficiently, given the fact that we have done a 
programmatic NEPA. And we ought to be looking at that in places 
in Colorado, I assume.
    Senator Gardner. Okay, and thank you. I know I am out of 
time. I have got more questions. We will follow up through the 
record.
    Thank you.
    The Chairman. Thank you, Senator Gardner.
    Mr. Connor, you mentioned that you have broad authority in 
certain areas. Do you think that the Department is maximizing 
the existing authority that you have in certain areas? Do you 
believe that additional authorities would be needed to address 
some of what we are talking about here this morning?
    Mr. Connor. We do have broad authority. I think that is one 
that I would like to think on and get back more--in more detail 
in the record. The issue Senator Gardner raised was 
particularly excess capacity----
    The Chairman. Right.
    Mr. Connor.--in our facilities and whether we are set up to 
really permit the use of that excess capacity in an efficient 
way. I think it bears a little bit more looking into.
    The Chairman. Well, I think it is something that we should 
be exploring because if we are really going to be looking 
beyond the current situation in California and, quite honestly, 
the current situation around the West, I think we want to be 
putting in place a policy that extends a lot longer than where 
we are in the here and now. If the existing authorities are not 
sufficient, I think we do need to look to that.
    But again, I would also challenge you to look to what you 
have currently and whether or not you are maximizing the use to 
the benefit of the users here. So it is something that I think 
as we are assessing legislation, we need to be looking at what 
we have on our books as well.
    You mentioned the issue of permitting and streamlining, 
reduced delays, but one of the things, again, that I have heard 
that we really need to be working to address is how can we 
provide some level of certainty to the users out there, whether 
they are family farms such as Ms. Woolf represents, whether it 
is the urban-suburban user. It is how we achieve this 
certainty.
    Mr. Kightlinger, let me ask, because when we talk about 
some of the ideas that are out there, some of the proposals, I 
think we recognize at the end of the day much of this is about 
competition for limited resources and we are sitting in a 
situation here where Federal Government has a tough budget 
right now.
    One of the prime differences between the House bill and the 
Senate bill is the funding in the Senate bill or the 
authorization for funding in the Senate bill, which is 
currently not paid for. I appreciated Senator Feinstein's 
willingness to explore offsets, but that is going to be a real 
consideration for us.
    So can you give me any suggestions herein in providing 
assistance to our drought-stricken areas, creative ways where 
we can be looking to partner with the Government within our 
local areas, between our states, how we can maximize these 
proposals without a big price tag? Because I think this is 
going to be one of the issues that we are going to be wrestling 
with here.
    Again, I think something that you could suggest or, in the 
alternative, are there things that we have in place that are 
barriers to being more effective than we are right now where we 
could remove them and it does not cost us money, which is a 
good thing, but it allows you to be more effective and more 
efficient?
    Mr. Kightlinger. Thank you very much, Madam Chair.
    A couple of suggestions, things to look at. Obviously, the 
money is tight, and it is always going to be a tremendous 
challenge, but there are some creative ideas in some of the 
legislative proposals out there building on what has been 
successful in the transportation industry, TIFIA. There is 
ideas to use that for reuse water, RIFIA, and there is also a 
WIFIA proposal out there. So these ideas are ways in which we 
can stretch dollars, use matching funds and not--and put burden 
on locals to come up with matching funds.
    Loan guarantee programs have also been very successful in 
the rail industry, and I think there is some look at perhaps a 
loan guarantee program for large-scale projects throughout the 
West, not a huge hit. It would be paid back. But the idea is 
that, you know, there is some interest money and things that 
would be used obviously for the local projects.
    Those are some creative ideas out there. I think all tools 
should be used. So to the extent RIFIA, WIFIA, these loan 
guarantee programs make sense and can be accepted, we think 
those are all valuable tools that can provide some help.
    In terms of what other things that aren't costing, you 
know, Deputy Secretary Connor talked a bit about trying to 
streamline. In California, we have been looking at a new 
conveyance program that is a $15 billion proposal that our 
Governor has put on that would be entirely funded by us, the 
ratepayers, the water users, and yet we are in year eight of 
environmental permitting. We spent $240 million to date in 
developing an environmental document, and we are still minimum 
six months away from Record of Decision, Notice of 
Determination. We have generated about 80,000 pages of analysis 
to date.
    The Chairman. Geez.
    Mr. Kightlinger. You know, this--it is a large, complicated 
project. We get it. But at some point, we are at paralysis by 
analysis, and we need to find more creative ways to speed up 
these processes.
    The Chairman. It makes me feel like Alaska. [Laughter.]
    Thank you. We will be exploring more creative ways to try 
to address some of the financial and funding issues.
    Senator Cantwell.
    Senator Cantwell. Well, that makes me think of Washington.
    I really don't have any more questions. On that last point, 
I think that is where we need to be. We just need to be on that 
level of creativity, and you get that when everybody comes to 
the table and is at the table together. That is when you get 
the creativity because what holds it up is the disagreement. So 
I just hope that we can look at S. 1894 and move it through the 
process and figure out ways to enhance whatever shortcomings 
there are.
    I do think, Madam Chair, there is a role for us to think 
about how we are going to modernize our programs because I 
really do think that some of these smaller storage programs can 
get underway immediately, and that helps. And I think when 
figuring out what we can do at the Federal level, I really do 
think we can help save ourselves dollars by working creatively. 
I know Senator Feinstein said she is going to look at what are 
those revenue opportunities.
    But clearly, this is an economic impact to the Federal 
economy, and we need to be smart about what we put in place so 
that we are minimizing that impact to us in the future. 
California's expenses will be our expenses as well, as will 
those of other Western drought situations.
    I appreciate all the witnesses today and look forward to 
working with you to try to get this resolved hopefully very, 
very soon.
    The Chairman. Senator Heinrich.
    Senator Heinrich. I appreciate the concern over pay-fors, 
and you know, these are real challenges. I would only make the 
point that we are going to need real dollars to fix these 
issues.
    One of my concerns about the House bill is that the pay-
fors referenced are really authorization pay-fors. They are not 
appropriations pay-fors. In my view, they are not real money, 
and we are going to need real money to fix these things.
    I am going to end with one last question for Mr. Oglesby. I 
wanted to touch on something that I think piqued the interest 
of the Chair and is a big part of our challenges on a--you 
know, an arid basin with seven different storage structures and 
different authorizations by Congress for each of those 
structures that are not coordinated in any reasonable way 
except through deviations. That is a huge challenge.
    So wearing your Conservancy District hat, can you talk a 
little bit more about what that means? For example, if you are 
dealing with a tight, dry summer and it is July and you release 
water as a Conservancy District from El Vado Reservoir, and 
then, suddenly, we get monsoon rains that negate the need to 
actually irrigate with the water that you have released into 
the river, can you capture that in Cochiti Reservoir downstream 
and hold it and use it for later irrigation or other uses, or 
do you have to just watch that water go by?
    Mr. Oglesby. Yeah, thank you, Senator Heinrich.
    We watch that water go by. It is a three-day transit time 
from the reservoir where we store our agricultural water. And 
as you say, if it rains in the interim when that water is 
moving down and our farmers don't need it and they don't take 
it, that water moves on down to Texas, and we lose the 
advantage of that water.
    Reauthorizing Cochiti, which is envisioned in Senate bill 
1936, is critical. It is going to be complicated. Of course, 
any reservoir operation is complicated, but if we could move 
that water from El Vado and hold it in Abiquiu, for example, or 
if we could hold it in Cochiti just for a little bit.
    And one other option that we are looking at within the 
conservancy district is can we do small-scale temporary storage 
within our own works? Can we capture these erratic, unexpected 
rainfalls that come in and perhaps hold them within our 
facilities just for a day or two and then wait for the farmers 
to need that water? We are looking at all of these options.
    So it is not just our seven reservoirs that we would like 
to operate in a coordinated fashion, but it is how we can 
integrate our existing systems with those coordinated reservoir 
operations.
    Senator Heinrich. Well, I just used that example just to 
show that I know all of this is relatively complicated, but we 
are managing the entire basin in a way that is uncoordinated. 
So when you have dramatically less input in terms of gross 
quantity of water and you have no flexibility to coordinate all 
of these structures, the seven reservoirs, your own works at 
the Conservancy District, we have seen very innovative things 
like Albuquerque doing storage underground in the aquifer.
    We are going to have to be more nimble in the future, and 
we certainly ought to be coordinating the Federal 
infrastructure in a way that could potentially be a benefit for 
all of the users, irrespective of what perspective they come 
from.
    Thank you, Madam Chair.
    The Chairman. Senator Heinrich, thank you.
    When you think about the situation in California, so much 
of the attention when we talk about the impact to the economy, 
we think about the agriculture sector and how that has been 
notably impacted.
    I was really struck by this article that somebody 
referenced, one of the Senators that was testifying, but it was 
an article in the Post back in May. But when you look to the 
various sectors that would take the brunt of job losses in 
continuing, ongoing drought, if the Colorado River ran dry for 
a year--please, let us hope that that does not happen--but the 
job losses one would initially think is going to be all about 
the agriculture sector. But it is in real estate, it is in 
finance, it is retail trade, the professional, the tech sector.
    But the sector that is impacted most dramatically is 
healthcare. I think it is a reminder to us all of the 
significance of available water supply and how it impacts 
everything that we do within our economies.
    Again, when I was in California meeting with the farmers, I 
sat down and had a conversation with the rice growers. I was 
thinking, okay, it is really all about rice. With those rice 
growers, it was all about water fowl. It was all about the 
impact to the habitat for the birds and the geese that were 
coming south and that were snacking on the rice leftover in the 
fields there.
    So it is a reminder to us that the impact here is so broad, 
it is so wide, that our failure to address it can have 
extraordinarily significant impact. I think you reminded us, 
Ms. Woolf, with your words. I think you said something about 
the weight being on all of us to come up with a solution.
    Know that I certainly feel that weight, I think our 
colleagues do as well, that we have an obligation to try to 
work with you all not only in California but across the West, 
better understanding our water, our water sources. It is the 
West right now, but it will have impact far beyond the West of 
the United States and I think we appreciate the responsibility.
    So I look forward to working with you all. I had asked Mr. 
Kightlinger for good out-of-the-box suggestions and would 
invite each of you to join us in that as well and submit what 
you can.
    This is the end of the hearing right now, but it is really 
the beginning of very constructive work and a lot of hard work. 
So thank you for your willingness to join us in this.
    And with this, the committee stands adjourned.
    [Whereupon, at 11:32 a.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                   [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
